The Medrala Law Firm, PLLC
1091 S. Cimarron Rd., Suite A-1
Las Vegas, Nevada 89145
Phone: +1-702-475-8884 Fax: +1-702-938-8625
Email: jmedrala@medralaw.com
Web: www.medralaw.com

Via Electronic Filing and USPS Mail

May 7, 2021

Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

AMA Multimedia, LLC v. Marcin Wanat
No. 20-1430

To the Clerk of the Court:
We represent Respondent, Marcin Wanat, in the above-referenced case. Petitioner AMA
Multimedia, LLC filed its Petition for Writ of Certiorari on April 8, 2021 and the matter was
placed on the docket on April 13, 2021. Respondent’s brief in opposition to the Petition for Writ of
Certiorari is due on or before May 13, 2021. Pursuant to Rule 30.4 of the United States Supreme
Court, we respectfully request a thirty (30) day extension of time to file a brief in opposition to
the Petition for Writ of Certiorari. Because a thirty-day extension of time would mean
Respondent’s opposition to the Petition for Writ of Certiorari would be due on June 13, 2021, a
Sunday, as set forth in Rule 30.1, Respondents respectfully request a due date of June 14, 2021.
I am counsel of record in this case and for the past week I have participated in a trial in
the Eight Judicial District Court of Nevada. I am currently preparing post-trial flings that are
due in the week of May 10, 2021, and I also have multiple other deadlines during that week, and
the following week in May.
For these reasons, we respectfully request a thirty (30) day extension of time, until June
14, 2021 under Rule 30.1, to file a brief in opposition to the Petition for Writ of Certiorari. On
today’s date, Mr. Randazza, counsel for Petitioner AMA Multimedia, was informed of
Respondents’ request for a thirty-day extension of time to file an opposition to the Petition for
Writ of Certiorari. As of the filing of this letter, Mr. Randazza has not voiced an objection to this
request.
Thank you for your attention.
Respectfully submitted,
/s/ Jakub P. Medrala
JAKUB MEDRALA
cc: Marc Randazza (via electronic filing and US Mail)

AMA Multimedia, LLC v. Marcin Wanat
No. 20-1430
CERTIFICATE OF SERVICE
I, Jakub P. Medrala, a member of the Bar of the United States Supreme Court, certify that
on May 7, 2021, I caused the foregoing letter to be electronically filed with the Clerk of the U.S.
Supreme Court, as well as causing a copy of the letter to be delivered to the Clerk via the U.S. mail
in a properly addressed, first class postage pre-paid envelope; and also to be served on counsel for
the Petitioner, electronically and by depositing a copy of same into the U.S. mail, first class postage
pre-paid in a properly addressed envelope, addressed as follows:
Marc. J. Randazza
Ronald D. Green
Randazza Legal Group, PLLC
2764 Lake Sahara Drive, Suite 109
Las Vegas, NV 89117
The Medrala Law Firm, Prof. LLC
/s/ Jakub P. Medrala
___________________________
JAKUB P. MEDRALA, ESQ.
1091 South Cimarron Road, Suite A-1
Las Vegas, Nevada 89145
Attorneys for Respondent

2

